No. 20-984
IN THE

6uprtmt ~ourt of tbt utnittb 6tatti
GURBIR S. GREWAL,
Attorney General of New Jersey,
Petitioner,

v.

DEFENSE DISTRIBUTED, et al.,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

BRIEF FOR THE STATES OF NEW YORK, CALIFORNIA,
COLORADO, CONNECTICUT, DELAWARE, HAWAI'I,
ILLINOIS, MAINE, MARYLAND, MASSACHUSETTS,
MICHIGAN, MINNESOTA, NEVADA, NEW MEXICO,
OREGON, PENNSYLVANIA, RHODE ISLAND,
VERMONT, VIRGINIA, AND WASIDNGTON, AND
THE DISTRICT OF COLUMBIA AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33. l(h), I certify that the document contains
5,314 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 24, 2021.

t.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

